   AUDIT REPORT
U.S. Fish and Wildlife Service
 Federal Assistance Grants
Administered by the State of
  Arkansas, Game and Fish
      Commission, from
    July 1, 2001, through
        June 30, 2003




 Report No. R-GR-FWS-0006-2004

                        May 2005
                United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                       External Audits
                             12030 Sunrise Valley Drive, Suite 230
                                    Reston, Virginia 20191
                                                                                    May 20, 2005

                                    AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Andrew Fedak
           Director of External Audits

Subject:   Final Audit Report on the U.S. Fish and Wildlife Service Federal Assistance
           Grants Administered by the State of Arkansas, Game and Fish Commission,
           from July 1, 2001, through June 30, 2003 (No.R-GR-FWS-0006-2004)


        This report presents the results of our audit of costs claimed by the State of Arkansas,
Game and Fish Commission (Commission), under Federal Assistance grants from the U.S. Fish
and Wildlife Service (FWS). The audit included claims that totaled approximately $28.7 million
on FWS grants that were open during the State’s fiscal years (SFYs) ended June 30, 2002, and
2003 (see Appendix 1). We also reviewed the Commission’s compliance with certain regulatory
and other requirements including those related to the collection and use of State hunting and
fishing license revenues and the reporting of program income.

        We identified questioned costs of $147,013 consisting of $139,351 that was used to
maintain lands or facilities acquired or constructed with Land and Water Conservation Fund
monies, which the State was required to maintain at its own expense, and $7,662 for ineligible
law enforcement activities. We also found that the official land records did not identify three
parcels of land acquired with Federal funds. In addition, we identified two other issues
concerning grant accounting and program income which the Commission promptly corrected
during our review. Accordingly, we did not make any recommendations regarding those issues.

        FWS Region 4 provided a response to a draft of this report on April 21, 2005.
The response stated concurrence with the four recommendations in the report but did not
specifically identify the actions to be taken to resolve the questioned costs for SFYs 2002 and
2003. We summarized the FWS response after the recommendations and added our comments
regarding the responses. The status of the recommendations is summarized in Appendix 4.
        In accordance with the Departmental Manual (361 DM 1.5), please provide us with your
written response to the recommendations included in this report by August 19, 2005. Your
response should include information requested in Appendix 4. If you have any questions
regarding this report, please contact me or Mr. Richard O’Brien, Audit Team Leader, at (703)
487-5345.

cc:   Regional Director, Region 4
       U.S. Fish and Wildlife Service




                                              2
                                              Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 authorize the U.S. Fish and Wildlife Service (FWS) to provide Federal Assistance
grants to states to enhance their sport fish and wildlife programs. The Acts provide for FWS to
reimburse the states up to 75 percent of the eligible costs incurred under the grants. They also
specify that state hunting and fishing license revenues cannot be used for any purpose other than
the administration of the state’s fish and game department.

Scope, Objective, and Methodology
We performed our audit at the Arkansas Game and Fish Commission (Commission) headquarters
in Little Rock, Arkansas. The audit work at the Commission included claims that totaled
approximately $28.7 million on FWS grants that were open during the State’s fiscal years
(SFYs) ended June 30, 2002, and 2003 (see Appendix 1). We also visited 2 fish hatcheries, 5
wildlife management areas, and 15 fishing/boating access areas, (see Appendix 3). The objective
of our audit was to evaluate:

           ¾ the adequacy of the Commission’s accounting system and related internal
             controls;
           ¾ the accuracy and eligibility of the direct and indirect costs claimed under the
             Federal Assistance grant agreements with FWS;
           ¾ the adequacy and reliability of the Commission’s hunting and fishing license fees
             collection, certification and disbursement processes;
           ¾ the adequacy of the Commission’s asset management system and related internal
             controls with regard to purchasing, control and disposal; and
           ¾ the adequacy of the State’s compliance with the Acts’ assent legislation
             requirements.

We performed our audit in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that we considered necessary under the circumstances. Our tests
included an examination of evidence supporting selected expenditures charged by the
Commission to the grants; interviews with employees to ensure that personnel costs charged to
the grants were supportable; and a review of the Commission’s use of fishing and hunting license
revenues to determine whether the revenues had been used for program purposes. We did not
evaluate the economy, efficiency, or effectiveness of the Commission’s operations.




1
    As amended 16 U.S.C. § 669 and 16 U.S.C. § 777, respectively

                                                         3
Prior Audit Coverage
On March 29, 1999, we issued audit report No. 99-E-394, “U.S. Fish and Wildlife Service
Federal Aid Grants to the State of Arkansas, Game and Fish Commission, for Fiscal Years ended
June 30, 1996, and 1997.” The report questioned costs of $592,777 and discussed accounting
and internal control weaknesses.

In February 2004, the Arkansas Legislative Auditor issued a Single Audit report on the State of
Arkansas’ significant Federal Programs for SFY 2003, including the FWS Federal Assistance
grants programs. The audit questioned $75,368 of unreported program income, but did not
identify any weaknesses in internal controls or noncompliance with requirements related to the
Commission’s Federal Assistance grants.

We reviewed these reports and followed up on all significant findings to determine whether they
had been resolved. The Commission completed its corrective actions during our audit, and we
consider all recommendations from the prior reports resolved and implemented.




                                               4
                                   Results of Audit
We found that the Commission was generally in compliance with applicable regulations and
grant accounting requirements with respect to the following:

       ¾ The Commission’s accounting system and related internal controls adequately and
         accurately accounted for grant and license fee receipts and disbursements;
       ¾ Direct and indirect costs claimed under Federal Assistance grants with FWS were
         adequately recorded and supported, except as noted below;
       ¾ The asset management system adequately identified and tracked personal and real
         property with regard to acquisition, control, and disposal; and
       ¾ The State had adequate assent legislation in place that prohibited the use of license
         fees for any purpose other than the administration of the Commission.

However, we also identified the following issues:

       A. We identified questioned costs of $147,013 consisting of:
             1. $139,351 that was used to maintain lands or facilities acquired or constructed
                 with Land and Water Conservation Fund (LWCF) monies, which the State
                 was required to maintain at its own expense, and
             2. $7,662 for ineligible law enforcement activities.
       B. The Commission’s official land records did not identify three parcels of land as
          acquired with Federal funds.

During our audit, the Commission implemented our recommendations on two other findings that
we brought to their attention. Therefore, no further action is needed on the following issues:

       C. The Commission did not adequately account for or accurately report the costs
          incurred under two separate FWS grants for the acquisition of 9,000 acres in the
          Choctaw Island Wildlife Management Area (WMA).
       D. The Commission did not report program income of $452,913 derived from the sales
          of harvested timber on its wildlife management areas that was earned subsequent to
          the period covered by our audit.


A. Questioned Costs

1. Ineligible Use of $139,351 in Federal Assistance Funds

We found that the Commission used Federal Assistance funds to maintain and/or operate LWCF-
funded facilities and properties located in fishing access areas and WMAs. Section 6(f)(1) of the
LWCF Act of 1965 (16 U.S.C. § 460l-8) requires states to operate and maintain by acceptable
standards, at State expense, properties or facilities acquired or developed with LWCF funds for
public outdoor recreation use. The FWS Manual (522 FW 7.5B) states that Federal Assistance
funds cannot be used to operate or maintain properties or facilities purchased or constructed
under the LWCF Act.

                                               5
The Commission maintained approximately 91 wildlife management areas, 225 fishing access
areas, and 5 hatcheries with Federal Assistance funds during SFYs 2002 and 2003. However, 6
of the locations (3 of the 91 WMAs, 2 of the 225 fishing access areas, and 1 of the 5 hatcheries)
contained either properties purchased or facilities constructed with LWCF funds.

Commission officials said they were unaware that LWCF funds had been used between 1972 and
1989 to purchase or develop portions of the six sites, and they could not locate any of the related
LWCF grant agreements in their files. We subsequently located the LWCF files at the Arkansas
Department of Parks and Tourism.

The Commission’s accounting system accounts for costs at the area level. The lowest level of
grant accounting was by fish access area, wildlife management area, and hatchery. Accordingly,
we were able to determine that the Commission used Federal Assistance funds of $139,351 for
maintenance of lands acquired or facilities constructed with LWCF funds at four of the six
properties (see Appendix 2). One area (Swift Ditch Weir at the Dave Donaldson - Black River
WMA) had no recorded maintenance costs.

We were unable to quantify the amount of Federal Assistance funds used to maintain LWCF-
funded facilities at the hatchery. Grants F-43-16, F-43-17, and F-43-18 provided funds for both
operation and maintenance of the hatchery as well as the production and stocking of fish. While
we found that $58,880 of the $147,291 of non-payroll expenses charged to the grant were for
maintenance and operations, utilities, janitorial services, and trash pickup, we could not identify
what portion of the $263,792 for payroll costs were related to operation and maintenance
activities. Further, the accounting system did not track costs related to individual facilities. To
resolve these questioned costs, the Commission will need to identify the hatchery maintenance
costs incurred under the grant and allocate those costs among the facilities, including the LWCF-
funded fish spawning facility. Hatchery and accounting officials said that they believe sufficient
records are available to construct a reasonable estimate of the operation and maintenance costs
associated with the LWCF-funded properties and facilities.

       Recommendations

       We recommend that FWS:

       a. Resolve the issue of Federal Assistance funds used during SFYs 2002 and 2003 to
          operate and maintain the five sites either acquired or developed with LWCF funds.

       b. Assist the Commission in developing a methodology to discontinue using Federal
          Assistance funds to operate and maintain project areas or lands and facilities acquired
          or developed with LWCF funds.

       Fish and Wildlife Service Response

       Regarding Recommendation A.1.a, FWS stated that it concurred with the finding and that
       “Prospectively, no future Federal Assistance grants will be used to maintain and/or
       operate LWCF-funded facilities.” Regarding Recommendation A.1.b, FWS stated that by
       July 1, 2005, the Commission will submit to FWS documentation of the unique cost

                                                 6
       centers for LWCF areas as a control to ensure Federal Assistance funds are not used for
       this purpose.

       Office of Inspector General Comments

       The response did not identify what actions would be taken to resolve the issue on the use
       of Federal Assistance funds in SFYs 2002 and 2003 on LWCF-funded facilities and
       properties. Also, the response did not contain sufficient detail on the controls to be
       implemented. Therefore, we consider the finding unresolved and the recommendations
       not implemented.

2. Ineligible Labor Costs of $7,662 for Law Enforcement Activities

The Commission charged ineligible salary costs of $7,662 for a law enforcement officer to Grant
W-64-32. OMB Circular A-87, Attachment A, Section C.1.d states that costs must conform to
any limitations or exclusions set forth in the Circular, Federal laws, and terms and conditions of
the Federal award to be allowable under the award. The Code of Federal Regulations
(regulations) (50 CFR § 80.6(a)) prohibits the use of Federal Assistance funds for law
enforcement activities conducted by the State to enforce the fish and game regulations.

The Commission’s Assistant Chief – Fiscal said that the law enforcement officer’s time sheet
showed him working on Law Enforcement project 061 but the project code was improperly input
as project 0261 of Grant W-64-32.

       Recommendation

       We recommend that FWS resolve the questioned cost of $7,662 related to ineligible law
       enforcement charges.

       Fish and Wildlife Service Response

       FWS concurred with the finding and stated that it had received and approved a
       revised SF-269 dated March 24, 2005, for Grant W-64-32.

       Office of Inspector General Comments

       The FWS response was sufficient to consider the finding resolved and the
       recommendation implemented.

B. Land Records
The Commission’s official land records do not identify three parcels of land as acquired with
Federal funds. Two parcels were acquired with LWCF funds: 3,888 acres acquired in 1971 for
the Rex Hanson/Black Swamp WMA and 17 acres acquired in 1984 for the Mount Olive Fishing
Access project. The Commission also acquired 127 acres for the Seven Devils WMA as part of
an exchange under FWS Grant W-76-1 in 2001. The deeds for the two LWCF parcels do not
contain a clause acknowledging Federal participation and the need to contact the National Park

                                                7
Service when a potential conversion of use is imminent. The deed for the tract acquired by
exchange does not contain a clause acknowledging Federal Assistance participation and the need
to contact FWS when a disposition of the property or a change in its use is planned.

The regulations [43 CFR § 12.71 (b)] provide that real property will be used for the originally
authorized purposes as long as needed for those purposes. The regulations
[43 CFR § 12.60 (b) (3)] also require the states to maintain accountability and control over real
property and assure that the property is used solely for authorized purposes.

According to Commission officials, land inventory records for the Rex Hanson/Black Swamp
and Mount Olive acquisitions were maintained by the State Legislative Auditor until 1999, when
the records were transferred to the Commission. Commission officials also said that at the time
of transfer, they were not aware of the LWCF Federal assistance because LWCF records were
maintained by the Arkansas Department of Parks and Tourism. They added that the Seven
Devils land records have not been completely updated because they are awaiting the results of a
land survey.

       Recommendation

       We recommend that FWS require the Commission to update its land inventory and deeds
       of record to properly show Federal participation in the Mount Olive Fishing Access, Rex
       Hanson/Black Swamp WMA, and Seven Devils WMA acquisitions.

       Fish and Wildlife Service Response

       The Service concurred with the finding and said that it has requested the
       Commission to add a Federal Assistance funding clause to the deeds for Mount
       Olive Fishing Access and Rex Hancock – Black Swamp WMA by May 1, 2005.

       Office of Inspector General Comments

       The FWS response was sufficient to consider the finding resolved but the
       recommendation not implemented.


Additional Findings
We identified two additional issues that we brought to the Commission’s attention during our
audit. The Commission adequately addressed our recommendations prior to the completion of
our audit and no further response is necessary.

C. Accounting for Grant Costs
The Commission received two separate FWS grants for the acquisition of 9,000 acres in the
Choctaw Island WMA. The estimated cost of the acquisition was about $9.3 million, of which
$3,823,177 was to be funded by Federal Assistance Grant W-76-1 and $5,473,805 was to be
funded by Grant 98210-G136 under the North American Wetlands Conservation Act (NAWCA)


                                                 8
program. We found that the Commission did not properly account for or accurately report the
costs incurred under each grant.

OMB Circular A-87, Attachment A, Section C.1.h states, in part, that to be allowable under
Federal awards, costs must not be included as a cost or be used to meet cost sharing or matching
requirements of any other Federal award in either the current or prior period, except as
specifically provided by Federal law or regulation.

We found that the Commission did not set up a separate account for NAWCA grant costs, and all
costs related to the acquisition were recorded in the account for Grant W-76-1. Further, the
Commission reported the total outlays ($9,515,300) for the acquisition on the SF 270 for the
NAWCA grant, which included the $4,508,454 reported on the SF 269 for Grant W-76-1. As a
result, we were unable to determine the costs related to each grant and whether sufficient costs
had been incurred to earn the grant amounts.

On September 14, 2004, we notified FWS and the Commission of this issue and recommended
that FWS require the Commission to (a) properly identify and allocate the costs associated with
Federal Assistance Grant W-76-1 and the NAWCA grant, and (b) revise the SF 269 for Grant W-
76-1 and the SF 270 for the NAWCA grant to eliminate similar matching costs. Prior to our exit
conference, the FWS and the Commission agreed with the findings and recommendations and
implemented corrective action. No further action is required.

D. Program Income
The Commission properly reported $906,703 in timber sales generated on wildlife management
areas that received Federal Assistance funds for their operation and maintenance during our audit
period. These revenues were identified as program income for Grants W-64-32 and W-64-33
and reported on the respective Financial Status Reports, SF-269s. In October 2003, subsequent
to our audit period, Commission officials decided to discontinue reporting timber sales income,
beginning with Grant W-64-34. The decision was based on their interpretation of an FWS
Director’s Policy Memorandum dated June 6, 2002, which stated that timber sales revenue was
considered as program income only during the acquisition grant period of performance.

According to the regulations (43 CFR § 12.65), program income is gross income received by a
grantee directly generated by a grant-supported activity. Program income should be deducted
from total grant costs to determine net costs on which the grantor’s share will be based, added to
the project funds to further eligible program objectives, or used to meet the cost sharing or
matching requirement of the grant agreement.

When we reported this matter to the Commission’s fiscal officials and the FWS Region 4 Federal
Assistance staff, both parties began negotiations to address the issue. On June 8, 2004, the
Regional Director, FWS Region 4, recommended that the Commission (1) submit a corrected
SF 269 for Grant W-64-34 showing the revenue from timber sales as program income, and
(2) submit an amendment to Grant W-64-35 requesting that timber sales be used as program
income and provide the rationale for electing the matching method available under 43 CFR
§12.65.



                                                9
We determined that the Commission had implemented both recommendations. During our
review, a revised SF 269, dated June 28, 2004, reported $452,913 of timber sales as program
income. On June 24, 2004, the Acting Chief, Federal Assistance, approved Amendment No. 2 to
Grant Agreement W-64-35, changing the method of use for program income from the deductive
method to the cost sharing/matching method. No further action is required.




                                            10
                                                                             Appendix 1
ARKANSAS GAME AND FISH COMMISSION FINANCIAL
       SUMMARY OF REVIEW COVERAGE
          JULY 1, 2001 THROUGH JUNE 30, 2003
  Grant                                   Questioned   Federal
 Number   Grant Amount   Claimed Costs      Costs       Share     Category

F-42-16      $621,300       $128,689
F-42-17        300,000        354,126
F-42-18        860,000        231,769
F-43-16      2,200,000      2,382,275
F-43-17      1,519,267      1,301,317
F-43-18      2,440,000          6,750
F-62-9         718,900        145,744
F-62-10        754,800        802,478
F-62-11        800,000        597,713
F-65-3       1,000,000        566,531        $30,859    $23,144    LWCF
F-65-4         690,000        818,557         33,378    $25,033    LWCF
F-66-2         541,075        356,951
F-66-3         651,065        402,307
F-67-1         710,000        447,108
F-68-1       1,640,000      1,781,043
F-69-1       4,090,828      2,827,923
F-70-1         636,511        552,205
FW-1-45        216,666         45,241
FW-1-46        228,400        141,665
FW-1-47        228,400         93,004
FW-6-27        200,668         91,252
FW-6-28        200,668        227,930
FW-6-29        250,668        209,446
W-1-30         566,400         47,089
W-1-31         548,534        750,876
W-1-32         400,000        243,057
W-64-32      4,000,000      1,740,702          7,662      5,747    Labor
W-64-33      4,000,000      3,516,398         41,766     31,325    LWCF
W-64-34      4,000,000      2,133,379         33,348     25,011    LWCF
W-69-26         90,000          4,982
W-69-27         90,000         55,128
W-69-28         90,000         27,030
W-76-1       3,823,177      4,508,454
W-77-1         181,772        183,910
W-78-1       1,175,166        738,275
W-79-1          23,200         20,769
W-80-1         394,030        205,674
           $40,881,495    $28,687,747       $147,013   $110,260




                                     11
                                                                                                    Appendix 2

                       ARKANSAS GAME AND FISH COMMISSION
                                QUESTIONED COSTS
                        FEDERAL ASSISTANCE FUNDS USED FOR
                     MAINTENANCE ON LWCF LAND AND FACILITIES

           LWCF Project                       F-65-3       F-65-4      W-64-33       W-64-34           Totals

Acquisition

    Rex Hancock/Black Swamp WMA                                           $37,042         $33,348        $70,390


    Mount Olive Fish Access                      $312         $2,834                                       3,146


Development

    Blue Mountain WMA
                                                                            4,724                          4,724

    Lake Pine Bluff Fish Access
                                               30,547         30,544                                      61,091

    Joe Hogan Hatchery *


                                              $30,859        $33,378      $41,766         $33,348       $139,351


 * The Joe Hogan Hatchery received funds under Grants F-43-16, F-43-17 and F-43-18. We
 could not determine the amount of grant funds used to maintain the specific facilities
 constructed with LWCF assistance.




                                                        12
                                               Appendix 3


ARKANSAS GAME AND FISH COMMISSION
          SITES VISITED

         Wildlife Management Areas
                 Bayou Meto
       Camp Robinson Demonstration Area
                Choctaw Island
          Rex Hancock/Black Swamp
                 Seven Devils

            Fishing/Boating Access
                   Cannon Brake
          Cox Cyprus Lake Boat Ramp
      Hampton Research Center Boat Ramp
                    Hicks Creek
               Lake Pine Bluff Park
                Little Bayou Meto
              Long Pond Boat Ramp
            Lower Vallier Boat Ramp
               Moore Access Ramp
                   Pierce Creek
           Rex Hancock/Black Swamp
             Rocky Hole Boat Ramp
    Upper Vallier Levee High Water Boat Ramp
    Upper Vallier Levee Low Water Boat Ramp
                Wrape Boat Ramp

                Fish Hatchery
           Joe Hogan Fish Hatchery
         Mammoth Springs Fish Hatchery




                      13
                                                                           Appendix 4

                  ARKANSAS GAME AND FISH COMMISSION
                       STATUS OF AUDIT FINDINGS
                        AND RECOMMENDATIONS


 Recommendation               Status                     Action Required

A.1.a and A.1.b        Finding Unresolved     Provide a corrective action plan that
                                              identifies the actions taken or planned to
                                              resolve the finding and implement the
                                              recommendations, as well as the basis for
                                              disagreement with any recommendations.
                                              The plan should also include the target
                                              date and the official responsible for
                                              implementation of each recommendation.
                                              The unimplemented recommendations
                                              remaining at the end of 90 days (after
                                              August 19, 2005) will be referred to the
                                              Assistant Secretary for Policy,
                                              Management and Budget for resolution
                                              and/or tracking of implementation.


A.2                    Finding Resolved and   No further action is required.
                       Recommendation
                       Implemented.

B                      Finding Resolved but   Provide a corrective action plan that
                       Recommendation Not     identifies the actions taken or planned to
                       Implemented            implement the recommendation. The plan
                                              should also include the target date and the
                                              official responsible for implementation. If
                                              the recommendation is not implemented at
                                              the end of 90 days (after August 19, 2005),
                                              it will be referred to the Assistant
                                              Secretary for Policy, Management and
                                              Budget for tracking of implementation.




                                        14
  Report Fraud, Waste, Abuse,
     and Mismanagement
             Fraud, waste, and abuse in government
              concerns everyone: Office of Inspector
                    General staff, Departmental
              employees, and the general public. We
                 actively solicit allegations of any
             inefficient and wasteful practices, fraud,
           and abuse related to Departmental or Insular
           Area programs and operations. You can report
                allegations to us in several ways.



By Mail:                 U.S. Department of the Interior
                         Office of Inspector General
                         Mail Stop 5341 MIB
                         1849 C Street, NW
                         Washington, D.C. 20240



By Phone:                24-Hour Toll Free          800-424-5081
                         Washington Metro Area      202-208-5300



By Fax:                  202-208-6081




By Internet:             www.oig.doi.gov
